           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ALABAMA DISABILITY DETERMINATION
    SERVICE’S BUSINESS PROCESS FOR
    ADJUDICATING DISABILITY CLAIMS

     February 2010   A-08-09-29163




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:      February 17, 2010                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Alabama Disability Determination Service’s Business Process for Adjudicating Disability
           Claims (A-08-09-29163)


           OBJECTIVE

           Our objective was to assess the Alabama Disability Determination Service’s (AL-DDS)
           business process for adjudicating disability claims. Our focus involved certain
           anonymous allegations made about AL-DDS related to, among other things, (1) its
           purported pressure on medical consultants (MC) to increase their disability allowance
           rates and (2) a process it allegedly used to circumvent the medical review of disability
           cases.

           BACKGROUND

           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs. Each DDS makes
           disability and blindness determinations for SSA and is responsible for ensuring that
           adequate evidence (medical and non-medical) is available to support its determinations.
           DDS employees do not see claimants face-to-face. Therefore, visual observations are
           not part of the decision-making process. Rather, DDSs depend on physicians and
           psychologists, known as MCs, and disability examiners to review medical evidence and
           the circumstances of each case to determine whether a claimant meets SSA’s definition
           of disability. DDSs may also purchase consultative examinations (CE) to supplement
           evidence obtained from the claimants’ physicians or other treating sources.

           SSA policy states that the primary mission of each DDS is to “. . . provide applicants
           with accurate and timely disability determinations.” 1 (Emphasis added.) SSA
           developed several performance goals related to its administration of the Disability
           Insurance program. In Fiscal Year (FY) 2008, these goals involved reaching
           established productivity and accuracy levels. These performance standards focus on


           1
               SSA, Program Operations Manual System (POMS), DI 0015.001(C).
Page 2 - The Commissioner

making accurate disability determinations in a timely manner—regardless of whether
the final determinations are to allow or deny the disability application.

Quality Assurance

To ensure effective and uniform administration of the disability program and to conform
to the statutory requirements set forth in Section 221(a) of the Social Security Act, 2 SSA
conducts ongoing quality assurance reviews of the State DDSs. Such reviews measure
the accuracy of DDS disability determinations 3 to determine performance accuracy, as
required by SSA regulations. 4 In addition, Social Security policy5 requires that SSA
review 50 percent of favorable Title II and concurrent Title II/XVI initial and
reconsideration determinations made by State agencies on a pre-effectuation review
basis. The purpose of this review is to detect and correct erroneous favorable Title II
determinations before the determination is effectuated. In addition to the Federal
quality review, AL-DDS has a Quality Assurance Unit that provides a substantive review
of all aspects of DDS claims processing, including decisional quality.

Disability Redesign Prototype

AL-DDS is among 10 DDSs involved in an initiative known as Disability Redesign
Prototype. 6 This Prototype applies to claims filed on or after October 1, 1999 7 and
involves two major changes to the disability process:

•     the use of a Single Decisionmaker (SDM) in making disability determinations and

•     the elimination of reconsideration on initial disability issues, such as whether the
      claimant is disabled, the onset date, and whether it is a closed period of disability.

SSA provided SDMs the authority to complete all disability determination forms and
make initial disability determinations without MC approval or review on all fully favorable
adult cases, with noted exceptions. Specifically, even in Prototype DDSs, MCs must
review and sign all disability claims involving (1) Quick Disability Determinations,
(2) initial denials or less than fully favorable determinations in which there is evidence
the claimant has a mental impairment, (3) SSI disabled child cases, (4) continuing

2
    42 U.S.C. § 421(a).
3
 According to SSA’s Office of Quality Performance, AL-DDS’ net accuracy rate for initial disability
determinations has averaged about 98 percent for FYs 2007 through 2009.
4
    20 C.F.R. § 404.1643; see also, DI 30005.001C.6.
5
    SSA, POMS, GN 04440.005 (B) (2).
6
    SSA, POMS, TC 17001.010 (A) (1).
7
   This process also applies to claims with protective filings and reopenings that have actual applications
filed on or after October 1, 1999.
Page 3 - The Commissioner

disability reviews, and (5) reconsiderations. 8 Additionally, SDMs may seek MC input on
any disability determination if they believe such counsel would be beneficial.

Anonymous Allegation

The Office of the Commissioner of Social Security provided the Inspector General a
September 25, 2008 letter from an anonymous individual claiming to be a State of
Alabama Medical Consultant (SAMC) at the DDS in Birmingham, Alabama. The letter
raised various issues regarding AL-DDS’ business process for adjudicating disability
claims. In October 2008, the AL-DDS Director sent a letter to SSA’s Atlanta Regional
Commissioner in which he addressed—and denied—each allegation. The Atlanta
Regional Commissioner deemed this response acceptable and performed no further
analysis of the allegations. However, when the anonymous letter was circulated again
in March 2009, we undertook this audit to examine some of the issues raised in the
letter. The letter contained eight allegations—six of which were addressed in this
review. The remaining two were not included because one involved State hiring
practices, and the other was a subjective issue we believed may be more appropriately
addressed in another audit (see Appendix C for additional information on these
allegations). The remaining six allegations are discussed in the Results of Review.

As part of our review, we (1) interviewed current and former MCs and AL-DDS
management; (2) reviewed applicable Federal laws and regulations and SSA policies
and procedures; and (3) gathered and analyzed relevant data as needed to objectively
evaluate the issues raised in the September 2008 letter. See Appendix B for additional
information on our scope and methodology.

RESULTS OF REVIEW

Based on interviews with 53 current and former AL-DDS MCs and review of instructions
the DDS provided to some of them, we concluded that, at a minimum, a perception
existed that AL-DDS pressured some MCs to increase their disability allowance rates.
Several MCs told us the pressure to approve claims influenced their medical decisions.
We acknowledge that analyzing information on disability allowance and denial rates is
beneficial in identifying anomalies, which may indicate a need for further MC training.
However, we believe each case should be weighed on its own merit in accordance with
SSA disability determination policies.




8
 SSA, POMS, DI 12015.003, DI 23022.050 (A), DI 27001.001 (D), DI 81020.110 (B) (1), and
DI 26510.089.
Page 4 - The Commissioner

We also identified a control weakness with AL-DDS’ use of a signature queue 9 in which
MCs signed required disability claim forms. One MC we interviewed acknowledged he
signed his name on approximately 80 to 100 disability cases per day. Another MC
stated he only performed a cursory review of each case in the signature queue and
generally signed 30 disability cases per hour. We acknowledge that AL-DDS had
practices in place in which MCs provided input and opinions on disability determinations
before cases were sent to the signature queue. However, without proper review and
screening by MCs who work the signature queue, AL-DDS cannot be assured that all
the required medical reviews were performed.

With regard to most of the remaining allegations, we received inconclusive or conflicting
evidence. As a result, we were unable to determine whether these allegations were
valid.

Allegation 1: AL-DDS Has Waged an Intimidating Campaign to Dictate Medical
Consultant Allowance Rates

The anonymous complainant alleged that “. . . for at least four years, DDS
administration has waged an intimidating campaign to dictate SAMC allowance rates.”
According to the complainant, this has involved warnings to MCs as a group and
threats of employment termination to individuals who do not comply. According to the
complainant, “. . . though there’s widespread discontent with administration’s tactics,
most of it is whispered for fear of retribution and job loss.”

Because of contradictory testimonial evidence, we could not conclude whether the
AL-DDS had waged “. . . an intimidating campaign to dictate allowance rates.”
Nevertheless, some MCs interpreted actions taken by AL-DDS as pressure to increase
the number of disability allowances. Specifically, 8 (15 percent) of the 53 MCs we
interviewed told us they did feel pressure to approve disability claims. Additionally,
although 40 (75.5 percent) MCs told us they did not feel “pressure” to approve disability
claims, 13 of these same MCs provided additional comments, including “. . . the DDS
told MCs to increase their allowance rates and “. . . there was an expectation of
30 percent allowance rates.” Finally, 5 (9.5 percent) MCs did not respond with a “yes”
or “no” answer, but provided a mixed, non-direct response, such as “. . . the DDS tells
MCs to be careful their approval rates are not too low” and “. . . the discussions about
approval rates influenced my medical determinations a little.”

One MC told us “. . . it is a common practice for the Alabama DDS to pressure medical
consultants and examiners to increase their allowance rates” and “. . . if you don’t meet
their goals, you run the risk of being fired or having your hours cut.” Another MC stated
“. . . the DDS made it clear that allowance rates were low and needed to improve” and
“. . . if MCs approval rates dropped, DDS management would have a discussion with
9
  The signature queue is an electronic business process that allows MCs to review and sign claims that
have been previously reviewed by a disability examiner or a MC. When these claim decisions are
finalized, the claims are sent to the signature queue on the computer system for final signatures. Only
those cases that are statutorily defined as SDM cases are not referred to the signature queue.
Page 5 - The Commissioner

the doctor.” Another MC told us they were threatened with job loss because of their low
allowance rate. Several MCs told us AL-DDS generally pushed for approval rates in the
30 percent range.

Several MCs told us the pressure to approve claims influenced their medical decisions.
One stated “. . . you were out the door if your allowance rates were not where the DDS
expected them to be.” Another MC stated they tried to identify ways to justify more
approvals and began requesting more tests. Another MC told us that some individuals
were approved for disability that should not have been because of AL-DDS’ pressure to
approve claims.

We found additional evidence (in the form of emails) that appeared to corroborate the
pressure to increase allowance rates allegations. In a January 2006 email, an AL-DDS
supervisor told MCs to look at their decisions very closely if they consistently had
allowance rates below 30 percent. The supervisor also stated that the AL-DDS Director
“. . . wanted all of the SAMCs to be cautioned about the low allowance rates.” In an
October 2007 email, another supervisor told MCs “. . . we need to improve our
allowance rates.” On October 25, 2007, the same supervisor sent an email to MCs
requesting a “Plan of Action” from each “. . . as to how you can increase your allowance
rates.” According to the email, the “Plan of Action” should contain the following
information: “(1) What actions you will be taking to have more allowances, (2) Your
benchmarks for the month on how you will accomplish this, and (3) Your end of the
month target.” In a May 2008 email, the supervisor told MCs “. . . if your allowance rate
is below 30%, refer back to your plans of action and continue to work on bringing your
allowance rates up.”

AL-DDS denied the allegation that it pressured MCs to increase disability allowance
rates. DDS representatives acknowledged holding discussions and requesting a “Plan
of Action” as to how MCs could reach the DDS’ target allowance rate, which it stated
was about 30 percent. AL-DDS representatives suggested this target rate was in line
with regional and national averages 10—but was not a quota or a goal. In an
October 2008 letter to SSA’s Atlanta Regional Commissioner, the AL-DDS Director
stated “. . . the DDS has asked the medical staff to establish individual initial claims
allowance rate targets in the 30% range and to work toward these targets.” However,
according to the AL-DDS Director, “. . . any reference to initial claims allowance rate
targets are based on national and regional averages.” The Director also stated that no
allowance rate requirements are in the MCs’ Memorandums of Agreement.

In response to the allegation of the threat of job loss, AL-DDS representatives stated
that it decided not to renew the contracts of some MCs because of poor work quality
(that is, failure to follow AL-DDS administrative policies and procedures and/or Federal
regulations)—not because the MCs had low allowance rates. In support of this

10
  The national allowance rate for initial disability claims was 35 percent in FY 2007, 36 percent in
FY 2008, and 37 percent in FY 2009. The Atlanta Region allowance rate for the same period was
28 percent, 30 percent, and 31 percent, respectively. AL-DDS’ allowance rate was 28 percent in FY 2007,
32 percent in FY 2008, and 32 percent in FY 2009.
Page 6 - The Commissioner

statement, AL-DDS representatives provided us specific regulations and policies with
which they stated certain MCs had not complied. AL-DDS representatives also told us
they performed a “special study” of one MC’s cases and found instances where the MC
had skirted issues and left out evidence. However, the MC stated “quality assurance”
reviewed 128 of the MC’s cases during FY 2008 and another 32 cases in early
FY 2009, which resulted in a 100-percent accuracy rating.

Although AL-DDS told us its intent was not to dictate approval rates, we understand
how AL-DDS’ actions could be interpreted as pressure to approve. We also believe the
distinction between what the AL-DDS called “allowance rate targets” from “goals” is
vague at best. In fact, AL-DDS emails instruct MCs to work toward achieving a
30-percent allowance rate. In our opinion, this appears to be a “goal.”

As to the threat of job loss, we received conflicting evidence. Accordingly, we could not
draw a definitive conclusion on this allegation. However, to enhance the integrity of
AL-DDS’ business process for adjudicating disability claims, we believe SSA should
take the necessary steps to ensure AL-DDS adjudicates all disability determinations on
the merit of evidence, without consideration of allowance targets or goals. To help
protect against future allegations of impropriety, we believe AL-DDS should avoid all
communications and other actions that personnel could interpret as pressure to
approve disability claims.

Allegation 2: AL-DDS Set up a “Signature Queue” Process, Which Circumvents
the Normal Physician/Psychologist Review of Cases

According to the anonymous complainant, the signature queue is a line of cases waiting
to be signed by an MC. The complainant alleged that MCs who agree to work the
signature queue may sign off on 40, 50, even 60 cases per day. According to the
complainant, “. . . there is simply no way this can result in an acceptable evaluation of
evidence and a sound decision.” Furthermore, “. . . the few minutes spent on a case is
not even close to time needed for a review of evidence and correct rating decision.”

Our review confirmed that a control weakness existed with AL-DDS’ signature queue
process. The intent of the signature queue was for certain MCs to perform an
expedited review of cases that had been previously rated by another MC. If all of the
evidence and paperwork appear in order, the MC working the signature queue will then
“sign” the case in SSA’s automated system. However, we learned that MCs working on
the signature queue did not always adequately review the cases before signing them.
Without proper review and screening by MCs who work the signature queue, the DDS
cannot be assured that all the required medical reviews were performed.

One MC told us that while working on the signature queue, “I generally sign between
80 and 100 cases each day” and “I do not read anything about the cases, I just sign my
name.” According to the MC, “. . . from a medical standpoint, I carry no responsibility
on decisions I sign off on through this process.” Another MC told us they sign 30 cases
an hour, which is 2 minutes per signature queue case. The MC stated that this short
Page 7 - The Commissioner

timeframe only gives them time to ensure the form is filled out correctly and look for
something peculiar or out of place. Another MC told us they refused to participate in
the signature queue process because they did not want to sign their name to a claim
that they did not have adequate time to properly review properly.

During discussions about the signature queue process, AL-DDS managers told us they
were unaware that some MCs routinely signed large numbers of disability cases daily
with little or no review of evidence. Management acknowledged that MCs should
adequately review such cases before signing them, and stated that “. . . medical
consultants are liable when they sign their name, and they are required to have liability
insurance.” AL-DDS management also told us they did not know the average number
of cases MCs sign each day, the percentage of cases that go through the signature
queue process, or the accuracy rate of signature queue cases compared with other
cases. In response to claims about the signature queue process impacting the integrity
of medical determinations, AL-DDS told us it uses a team approach when adjudicating
disability claims. That is, MCs make daily rounds to consult with disability examiners
about specific cases. Furthermore, AL-DDS told us it progressively trains newly hired
disability examiners for 18 months before they can function as an SDM. According to
the AL-DDS Director, the DDS rounds process and a fully trained staff helps enhance
the integrity of the signature queue process.

As to the claim that AL-DDS has set up a process to circumvent the normal physician or
psychologist review of disability cases, the AL-DDS Director provided the following
information to SSA’s Atlanta Regional Commissioner in an October 2008 letter.

          The signature queue is part of the overall Social Security Administration
          electronic process that is being followed by the DDS.

          The Federal Register Volume 64, Number 167, dated August 30,1999, named
          the Alabama DDS as one of ten states to incorporate multiple modifications to
          the disability determination procedures identified in 20 CFR 404.906. One of the
          changes is having a single decisionmaker (a/k/a the disability specialist) make
          the initial claims determination with assistance from medical consultants, where
          appropriate. This process allows more effective use of the medical consultants’
          expertise.

We acknowledge that AL-DDS has the legal authority to allow SDMs to make initial
claims determinations. We also recognize that AL-DDS uses a team approach (MCs
                                                                            11
consulting with disability specialists) when adjudicating disability claims. However,
because AL-DDS was unaware that some MCs routinely sign off on large numbers of
cases daily with little or no review of evidence, we believe AL-DDS should monitor the
signature queue process to ensure compliance with policies and procedures, including
the requirement to adequately review disability claims before final signature.


11
     The MC who signs off on signature queue cases may not be the MC who consulted on the case.
Page 8 - The Commissioner

Allegation 3: AL-DDS Ordered Doctors to Rate 12 Cases When Medical Evidence
Was Insufficient

According to the anonymous complainant, “. . . an insufficient evidence case means we
did not have enough data to arrive at a fair and accurate rating determination.” The
complainant stated there are many reasons why this may occur. For example, the CE
may be contradicted by, or inconsistent with, other evidence, and the inconsistencies
cannot be resolved. However, according to the complainant, “. . . administration has
ruled that we must either allow or deny the claimant.”

Because of limited testimonial evidence, we could not substantiate this allegation. Only
two MCs told us that AL-DDS ordered doctors to rate cases when medical evidence
was insufficient. According to one MC, there were times when the MC and others were
told not to rate a case as insufficient evidence but instead to take a second look at
evidence and make a determination. Another MC stated “. . . the DDS told doctors they
could not order needed tests,” and “. . . as such, they had to rate cases with insufficient
medical evidence.”

AL-DDS denied it ordered MCs to adjudicate claims with insufficient medical evidence.
In an October 2008 letter to SSA’s Atlanta Regional Commissioner, the AL-DDS
Director stated,

          The DDS has always placed an emphasis on obtaining complete medical
          treatment records before any consultative examination (CE) is requested.
          Disability specialists have been given tools and the authority to work with treating
          sources to secure this evidence. Medical consultants make telephone calls to
          treating sources for evidence. When a medical consultant reviews a claim and
          concludes that the evidence is “insufficient,” he or she is asked to specify what
          evidence is needed to process the claim so that the “right decision” can be
          made. The DDS has never issued written or verbal instructions to adjudicate
          claims with insufficient medical or other evidence.

Allegation 4: AL-DDS Allowed Elderly Doctors with Dementia to Continue
Working

The anonymous complainant alleged that the AL-DDS allowed one elderly doctor with
cognitive impairments to work every day and sign cases for several months. According
to the complainant, the doctor “. . . was confused by the sign-in sheet and would return
to, and stare at it, for extended periods.” Furthermore, “. . . he was baffled by the
computer system we were installing and never understood or was able to use it in even
the most basic way.” Another doctor, according to the complainant, “. . . could not learn
even the most basic uses of the computer system.” Furthermore, “. . . for the last
several months here, he would sit in his office, with hands folded, and stare at the
computer for hours.”


12
     MCs may “rate” the degree of functional limitation resulting from an impairment.
Page 9 - The Commissioner

Because of conflicting testimonial evidence and a lack of medical documentation to
establish certain doctors suffered from dementia, we were unable to conclude whether
AL-DDS allowed elderly doctors with dementia to continue working.

Two MCs told us they had concerns about elderly doctors’ ability to adjudicate disability
claims. 13 One MC told us the allegation about AL-DDS allowing elderly doctors with
dementia to continue working was true. The MC stated that doctors should not be
allowed to sign disability cases when their condition is so poor their daughter has to
escort them to work each day and sign them in. The MC told us they expressed their
concerns to a former SAMC supervisor but was told “. . . it was hard to tell someone to
stop working . . . “ and the supervisor “. . . hoped the doctor or their family would
recognize their poor mental condition.” Another MC told us one elderly doctor, who
routinely signed off on signature queue cases, was demented and barely
comprehended their actions.

However, according to AL-DDS management, both doctors consistently performed their
regular duties in accordance with SSA guidelines and policies. AL-DDS told us they
followed the Americans with Disabilities Act and provided necessary accommodations,
such as handicap accessibility, assistance, and computer update training. Also,
AL-DDS management stated it did not have any medical reports indicating or
establishing that either doctor had dementia, and no other DDS doctors discussed their
concerns about the mental or physical health of these doctors. In addition, the AL-DDS
pointed out that all case consultations and reviews by these doctors were subject to the
random quality sample reviews by the AL-DDS internal and Federal review
components. Furthermore, unit supervisors had the opportunity to review their case
recommendations as well. Although 2 MCs told us they had concerns about elderly
doctors’ ability to adjudicate disability claims, AL-DDS stated that both doctors
reviewed, rated and signed a reasonable number of cases (2,795) during their last
3 months with the DDS. 14

Allegation 5: Most Medical Consultants Failed to Meet Performance Contract
Standards

The anonymous complainant alleged that MC contracts have a productivity standard of
rating two cases per hour. According to the complainant, most MCs at AL-DDS fail to
meet that standard but are routinely rehired.

We found no evidence to support this allegation. In fact, we determined that no
production requirement standards are in the MC’s Memorandum of Agreement.
According to AL-DDS, an annually distributed MC handbook states that MCs should
generally rate about two cases per hour. This is an administrative standard that varies
greatly depending on an MC’s medical specialty, the number of cases referred to a
13
  We did not address this allegation during our interviews with MCs. The two MCs who expressed
concerns about elderly doctors provided their views while answering other questions.
14
     One MC left in 2005, and the other left in 2007.
Page 10 - The Commissioner

particular MC or group of MCs with the same specialty, the MC’s schedule, and the
number of hours an MC is available to work. Although AL-DDS told us it monitors daily
voucher sheets for each MC and adjusts cases assigned based on the MC’s availability
and/or production, they could not readily provide us with an accurate number of cases
MCs rated because of potential double counting.

Allegation 6: AL-DDS Has CE Panelists Who Are Not Licensed Psychologists

The anonymous complainant alleged that “. . . though Social Security rules clearly state
psychological medical consultants must be licensed or certified as a psychologist at the
independent practice level of psychology by the state in which he or she practices, our
DDS has panelists who are not licensed.”

Although AL-DDS uses some CE panelists who are not licensed psychologists, we
determined that AL-DDS followed SSA policy and Federal regulations when purchasing
CEs. Specifically, while five Licensed Professional Counselors performed CEs for
AL-DDS, we determined that AL-DDS was in compliance with SSA rules and
regulations relating to such individuals as “other” medical sources. 15 In addition, we
concluded that AL-DDS had procedural requirements in place to help ensure Licensed
Professional Counselors only perform CEs when a diagnosis from an acceptable
medical source is in the claims file. 16 In response to this allegation, the AL-DDS
director provided the following to SSA’s Atlanta Regional Commissioner in an
October 2008 letter.

          In 1998 a new state law was enacted that affected the practice of psychology in
          Alabama. With the change in the law, our attention was called to nine CE
          panelists who were not licensed to but educated in the practice of clinical
          psychology at the doctoral level, and had to be suspended from the CE panel.
          The nine Alabama Licensed Professional Counselors had conducted
          examinations in many rural areas and small towns in Alabama.

The DDS worked with the Center for Disability and the Office of Disability to determine
a way to return these individuals to the CE panel. A definite need existed for these
panelists to conduct CEs in these rural areas of the state. Procedures were written,
with an additional computer system scheduling safeguard, that allowed these
individuals to conduct examinations only, as the Federal regulations require, when there
is evidence, in file, documenting “a medically determinable impairment” from an
“acceptable medical source” identified in 20 CFR 404.1513 and 416.913. The DDS
regularly checks to ensure the process is followed.




15
     “Other” medical sources are defined by the regulations at 20 C.F.R. §§ 404.1513(d) and 416.913(d).
16
  The qualifications for “acceptable” medical sources are specified at 20 C.F.R. §§ 404.1513(a) and
416.913(a).
Page 11 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
We recognize that AL-DDS provides a valuable public service to disabled citizens by
performing disability determinations. However, because adjudicating disability claims is
a critical component of SSA’s overall disability programs, and given the serious nature
of the issues we identified, we believe AL-DDS should take additional steps to enhance
the integrity of its business process for such activity—and SSA should ensure that
AL-DDS implements such steps.

Accordingly, we recommend that SSA instruct AL-DDS to:

1. Adjudicate all disability determinations on the merit of evidence, without
   consideration of allowance targets or goals. In addition, AL-DDS should avoid all
   communications and other actions that personnel could interpret as pressure to
   approve disability claims.

2. Monitor the signature queue process to ensure compliance with policies and
   procedures, including the requirement to adequately review disability claims before
   final signature.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Allegations Not Addressed
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
AL-DDS   Alabama Disability Determination Service
C.F.R.   Code of Federal Regulations
CE       Consultative Examination
DDS      Disability Determination Services
FY       Fiscal Year
MC       Medical Consultant
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SAMC     State of Alabama Medical Consultant
SDM      Single Decisionmaker
SSA      Social Security Administration
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we

•   reviewed pertinent sections of the Social Security Administration’s policies and
    procedures;

•   reviewed applicable Federal laws and regulations;

•   reviewed the 1996 Social Security Rulings, which interpreted certain policy for
    Titles II and XVI;

•   interviewed current and former State of Alabama Medical Consultants and Alabama
    Disability Determination Service (AL-DDS) management;

•   reviewed State of Alabama Medical Consultants contracts; and

•   reviewed AL-DDS’ response to SSA’s Atlanta Regional Commissioner regarding the
    allegations contained in the September 25, 2008 anonymous letter.

We performed our audit at the AL-DDS and the Office of Audit in Birmingham,
Alabama, from May through September 2009. We conducted our audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                                                                            Appendix C

Allegations Not Addressed
Allegation 7: AL-DDS Continues to Buy Inferior Consultative Examinations

The anonymous complainant alleged that some physicians/psychologists (panelists) 1
who perform examinations for the Alabama Disability Determination Service (AL-DDS)
“. . . do a very poor job and send us reports that look about the same for every
claimant.” According to the complainant, “. . . some panelists almost invariably give us
medical source opinions that indicate marked limitations, which pushes our ratings
toward an allowance.” Furthermore, “. . . other panelists routinely have gross
discrepancies between their findings and medical source opinions.”

In response to this allegation, the AL-DDS stated it has a business process that
requires regular reviews of all consultative examinations (CE). Additionally, AL-DDS
procedures allow medical consultants (MC), unit supervisors, or disability specialists to
comment and/or refer any CE they believe is inadequate in content or quality. The
AL-DDS stated that these referrals are made to the disability determination services’
(DDS) Medical Relations section where the DDS Quality Assurance section and/or
another MC perform five additional reviews of CE panelists’ work.

We did not address this allegation because it involved the content and quality of work
performed outside AL-DDS. However, because CEs play a key role in DDS’ business
process of adjudicating disability claims, we will consider conducting a nation-wide
review of this issue in the future.

Allegation 8: Medical Consultants May Be Hired and Retained Because They
Have High-Ranking Family Members at the AL-DDS

The anonymous complainant alleged that three MCs may have been hired and retained
because they had high-ranking family members at AL-DDS.

In response to this allegation, AL-DDS stated it engages in fair and legal recruitment
and hiring practices. According to AL-DDS, the DDS’ parent agency, State of Alabama
Department of Education, the State Legislature, State Finance Department, and the
Governor’s office carefully scrutinize the hiring practices for contract MCs. Further,
AL-DDS stated the hiring practices of the Alabama State Personnel Department,
including receiving and processing job applications, rankings, and certifications are
independent of any AL-DDS input or influence. We did not address this allegation
because it involved the hiring practices of the Alabama Department of Personnel.


1
 The DDS pays a panelist to examine a claimant when DDS MCs determine a case has inadequate
evidence.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM



Date:      January 20, 2010                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Dean Landis for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Alabama Disability Determination
           Service’s Business Process” (A--08-09-29163)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We have attached our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. You may direct staff inquiries to Candace
           Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “ALABAMA DISABILITY DETERMINATION SERVICE’S BUSINESS
PROCESS FOR ADJ UDICATING DISABILITY CLAIMS” (A-08-09-29163)


Thank you for the opportunity to review and comment on the draft report.

We are committed to making timely and accurate disability determinations. We use performance
standards on timeliness and accuracy rates to measure the success of our Disability
Determination Services (DDS). Based on our standards, the AL-DDS excels in both of these
areas.

Our responses to your two recommendations are below.

Recommendation 1

Adjudicate all disability determinations on the merit of evidence, without consideration of
allowance targets or goals. In addition, the AL-DDS should avoid all communications and other
actions that personnel could interpret as pressure to approve disability claims.

Comment

We agree that disability examiners should base their determinations on the merit of the evidence.

We have many safeguards and quality checks in place to ensure that the DDSs provide consistent
and accurate disability determinations. For example, each DDS conducts an in-depth and
substantive review of adjudicated claims. Furthermore, the Office of Quality Performance
(OQP) reviews a sample of DDS determinations to ensure that they are correct, consistent, and in
line with national policies and standards.

Our quality measures indicate that the AL-DDS achieves a high accuracy rate. The chart below
is an excerpt from OQP’s fiscal year (FY) 2007 and 2008 Quality Assurance (QA) report. It
summarizes performance and net accuracy information for the Atlanta Region and the AL-DDS. 1


    FY 2007        Performance            Net       FY 2008              Performance            Net
                    Accuracy            Accuracy                          Accuracy            Accuracy
    Atlanta                 93.6              96.8 Atlanta                       95.0               96.8
    Alabama                 95.2              98.1 Alabama                       96.7               97.9


We acknowledge the intent of the second part of the recommendation, which states that the
1
 Office of Disability Program Quality (ODPQ) Web QA Reports, Office of Quality Performance Federal Quality
Assurance Review, Initial Disability Determinations, Performance Accuracy and Net Accuracy Summary, Table 1
FY 2007-2008


                                                     D-2
AL-DDS should avoid all communications and other actions that personnel could interpret as
pressure to approve disability claims. The AL-DDS does not use allowance rate information to
manage employee performance. Nevertheless, it is management’s responsibility to use and share
management information to identify anomalies or outliers and to ensure that fair and consistent
decisions are made.

Recommendation 2

Monitor the signature queue process to ensure compliance with policies and procedures,
including the requirement to adequately review disability claims before final signature.

Comment

We agree. The AL-DDS agreed to implement enhanced end-of-line and random quality reviews
to ensure MCs responsible for signing disability claims are adhering to the policies and
procedures.




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Hollie Reeves, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-09-29163.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
